<html>
<title> - THE NEED FOR RESILIENCE: PREPARING AMERICA'S TRANSPORTATION INFRASTRUCTURE FOR CLIMATE CHANGE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                        THE NEED FOR RESILIENCE:
                   PREPARING AMERICA'S TRANSPORTATION
                   INFRASTRUCTURE FOR CLIMATE CHANGE

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2019

                               __________

                           Serial No. 116-22

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


       Available via the World Wide Web: http://science.house.gov
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-368PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="22524d62415751564a474e520c414d4f0c">[email&#160;protected]</a>               

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

              Subcommittee on Investigations and Oversight

              HON. MIKIE SHERRILL, New Jersey, Chairwoman
SUZANNE BONAMICI, Oregon             RALPH NORMAN, South Carolina, 
STEVE COHEN, Tennessee                   Ranking Member
DON BEYER, Virginia                  ANDY BIGGS, Arizona
JENNIFER WEXTON, Virginia            MICHAEL WALTZ, Florida
                         
                         
                         C  O  N  T  E  N  T  S

                              May 21, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Mikie Sherrill, Chairwoman, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     9
    Written Statement............................................    10

Statement by Representative Ralph Norman, Ranking Member, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    11
    Written Statement............................................    12

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    13

                               Witnesses:

Ms. Susanne DesRoches, Deputy Director for Infrastructure and 
  Energy, Office of the New York City Mayor
    Oral Statement...............................................    14
    Written Statement............................................    17

Mr. Gregory D. Winfree, Director, Texas A&M Transportation 
  Institute
    Oral Statement...............................................    35
    Written Statement............................................    38

Mr. Jason Averill, Chief, Materials and Structural Systems 
  Division, Engineering Laboratory, NIST
    Oral Statement...............................................    49
    Written Statement............................................    51

Mr. Scott Reeve, President, Composite Advantage
    Oral Statement...............................................    60
    Written Statement............................................    62

Discussion.......................................................    76

             Appendix I: Answers to Post-Hearing Questions

Mr. Jason Averill, Chief, Materials and Structural Systems 
  Division, Engineering Laboratory, NIST.........................    94

            Appendix II: Additional Material for the Record

Statements submitted by Representative Mikie Sherrill, Chairman, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    98

White paper submitted by Representative Sean Casten, Subcommittee 
  on Investigations and Oversight, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................   108

 
                        THE NEED FOR RESILIENCE:
                   PREPARING AMERICA'S TRANSPORTATION
                   INFRASTRUCTURE FOR CLIMATE CHANGE

                              ----------                              


                         TUESDAY, MAY 21, 2019

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Mikie 
Sherrill [Chairwoman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Sherrill. This hearing will come to order.
    Without objection, the Chair is authorized to declare 
recess at any time.
    Good morning, and welcome to today's hearing of the 
Investigations and Oversight Subcommittee. I am pleased once 
again to welcome Ranking Member Norman of South Carolina and 
all of my colleagues on both sides of the aisle.
    Today, we are discussing a subject that directly touches 
all of our lives almost daily. America's transportation 
infrastructure is vital to the Nation's well-being. And in 
cities, suburbs, and small towns across the country, Americans 
rely on the roads, highways, bridges, tunnels, trains, 
airports, and ports of our transportation system to live their 
lives and to support their families.
    But climate change poses an unprecedented threat to our 
transportation infrastructure. Sea-level rise and coastal 
flooding place 60,000 miles of roads and bridges in coastal 
floodplains at greater risk. Rail infrastructure and airports 
are also vulnerable to more frequent extreme heatwaves and 
increased flooding. And the impacts of climate change for 
transportation infrastructure will only intensify over time.
    This issue hits home in New Jersey, because we've seen the 
impacts of extreme weather up close. In 2012, Hurricane Sandy 
flooded the Hudson Tunnel, the only tunnel that provides 
passenger rail access between New Jersey and New York City. We 
have been living with the consequences ever since, as the 
concrete and metal in the tunnel, the 100-year-old tunnel, 
continue to deteriorate due to the effects of age and seawater. 
I toured the tunnel earlier this month with some of my 
colleagues in Congress and saw the degradation firsthand.
    If the Hudson Tunnel must eventually be shut down for 
repairs, the economic effects for the region and the Nation 
will be catastrophic. Many of my constituents commute to work 
and school every day through that tunnel. We need to understand 
that climate change makes storms like Hurricane Sandy more 
likely and that our transportation infrastructure is exposed.
    We also need to take climate reality into account when 
planning for the future. In the Northeast, we have a solution 
called the Gateway Program that would build a second rail 
tunnel to handle passenger rail traffic while the current 
tunnel is being repaired. Gateway is vital to the region's 
future. We must ensure that the Gateway tunnel gets built as 
soon as possible, and we must make sure it is built to enhance 
the overall climate resilience of the region's transportation 
system.
    Other transportation assets in my region are similarly 
vulnerable to climate impacts. Using the Surging Seas analysis 
from Princeton University, we can see the impacts of sea-level 
rise for coastal transportation infrastructure in northern New 
Jersey. The expected sea-level rise in that area is 3 to 6 
feet, and under a 6-foot scenario, Newark Airport is virtually 
underwater, and the roads, bridges, and rail infrastructure all 
along the coastline are inundated, as you can see. A 2017 
report commissioned by Amtrak identified the same kind of 
flooding vulnerabilities along the system's coastal routes in 
the Northeast Corridor.
    This hearing is an opportunity to look forward, rather than 
backward, and to focus on solutions. I hope that the hearing 
helps us to answer questions about the role that the Federal 
Government should play in understanding and enhancing 
transportation climate resilience, and we need to understand 
what the Federal Government is doing well and not so well. We 
need to listen to cities and municipal planners when they tell 
us the challenges they face, and we need to help them share 
their lessons learned with other communities around the 
country. We also need to think creatively about how to mobilize 
our Nation's research enterprise, from Federal agencies to 
academia. The stakes are too high for anything less.
    I'm very pleased to welcome the distinguished witnesses 
appearing here today, and we thank you for appearing before the 
Subcommittee and look forward to your testimony.
    [The prepared statement of Chairwoman Sherrill follows:]

    Good morning, and welcome to today's hearing of the 
Investigations and Oversight Subcommittee. I am pleased once 
again to welcome Ranking Member Norman of South Carolina and 
all of my colleagues on both sides of the aisle.
    Today we are discussing a subject that touches all of our 
lives almost daily. America's transportation infrastructure is 
vital to the nation's wellbeing. In cities, suburbs and small 
towns across the country, Americans rely on the roads, 
highways, bridges, tunnels, trains, airports and ports of our 
transportation system to live their lives and support their 
families
    But climate change poses an unprecedented threat to our 
transportation infrastructure. Sea level rise and coastal 
flooding place 60,000 miles of roads and bridges in coastal 
floodplains at greater risk. Rail infrastructure is vulnerable 
to more frequent extreme heat waves. Increased precipitation 
and inland flooding threaten the structural integrity of 
thousands of bridges. Airports are exposed to a spectrum of 
flooding and extreme heat risks. And the impacts of climate 
change for transportation infrastructure will only intensify 
over time.
    This issue hits home in New Jersey, because we have seen 
the impacts of extreme weather up close. In 2012, Hurricane 
Sandy flooded the Hudson Tunnel - the only tunnel that provides 
passenger rail access between New Jersey and New York City. We 
have been living with the consequences ever since, as the 
concrete and metal in the Tunnel continue to deteriorate due to 
the effects of seawater. I toured the Tunnel earlier this month 
with some of my colleagues in Congress and saw the degradation 
first hand.
    If the Hudson Tunnel must eventually be shut down for 
repairs, the economic effects for the region and the nation 
will be catastrophic. Many of my constituents commute to work 
and school every day through that tunnel. We need to understand 
that climate change makes storms like Hurricane Sandy more 
likely, and that our transportation infrastructure is exposed.
    We also need to take climate reality into account when 
planning for the future. In the Northeast, we have a solution 
called the Gateway Program that would build a second rail 
tunnel to handle passenger rail traffic while the current 
tunnel is being repaired. Gateway is vital to the region's 
future. We must ensure that the Gateway Tunnel gets built as 
soon as possible. And we must make sure it is built to enhance 
the overall climate resilience of the region's transportation 
system.
    Other transportation assets in my region are similarly 
vulnerable to climate impacts. Using the Surging Seas program 
from Climate Central at Princeton University, we can see the 
impacts of sea level rise for coastal transportation 
infrastructure in northern New Jersey. Under a six feet 
scenario with unchecked climate change, Newark Airport is 
surrounded by water and the Port Newark-Elizabeth Marine 
Terminal is inundated. A flood at this level is considered a 
virtual certainty by 2050 under this projection. A 2017 report 
commissioned by Amtrak identified the same kind of flooding 
vulnerabilities along the system's coastal routes in the 
Northeast Corridor.
    This hearing is an opportunity to look forward, rather than 
backward, and to focus on solutions. I hope that the hearing 
helps us to answer questions about the role that the federal 
government should play in understanding and enhancing 
transportation climate resilience. We need to understand what 
the federal government is doing well and not so well. We need 
to listen to cities and municipal planners when they tell us 
the challenges they face, and we need to help them share their 
lessons learned with other communities around the country. We 
need to think creatively about how to mobilize our nation's 
research enterprise, from federal agencies to academia. The 
stakes are too high for anything less.
    I'm very pleased to welcome the distinguished witnesses 
appearing here today. We thank you for appearing before the 
Subcommittee and look forward to your testimony.

    Chairwoman Sherrill. The Chair now recognizes Mr. Norman 
for an opening statement.
    Mr. Norman. Thank you, Chairwoman Sherrill, for convening 
this meeting, and thank each one of the witnesses for taking 
the time to come.
    In case you're wondering, the rose on my lapel is for the 
100-year women's right to vote. I was there at the time. I was 
about 4 years old, and I was responsible for passing it, so 
thank you all for recognizing that.
    We are here today to examine how natural disasters and 
extreme weather events pose risks to transportation 
infrastructure and to assess the research and development 
targeted at improving the resilience of America's 
transportation infrastructure.
    Reliable and strong infrastructure is critically important 
to my home State of South Carolina. In the past 5 years alone, 
South Carolina has been impacted by a 1,000-year flood and 
back-to-back hurricanes. In South Carolina we're also concerned 
about the impact that increased flooding frequently has on our 
communities.
    To address our State's specific concerns, the Governor 
created the South Carolina Floodwater Commission. This 
commission is tasked with identifying short-term and long-term 
solutions to mitigate the impact of extreme weather, with one 
task force specifically focused on infrastructure resilience.
    I welcome the chance to consider the issue of 
infrastructure resilience and highlight the role the Federal 
Government can play in ensuring that State and local 
communities all have the resources necessary to make the best 
decision for their infrastructure planning.
    Further, I'm looking forward to learning more about 
technologies and innovations that can improve the resilience of 
America's transportation infrastructure systems and assets, 
from advanced composite materials to additive manufacturing 
with cement and concrete.
    We will also hear about some of the ambitious initiatives 
being undertaken at the Federal, State, and local levels of 
government to incorporate resilience considerations into the 
planning, design, and construction of America's transportation 
infrastructure, both now and in the future.
    In recent years, much of the country's transportation 
infrastructure has started to show its age. Across the country, 
from coastal communities to land-locked States, roads are in 
disrepair, bridges are collapsing, and tunnels are crumbling. 
Fortunately, great work is being done at the Federal, State, 
and local levels of government, within industry, and among 
academia to improve transportation infrastructure resilience.
    Composite materials, like those manufactured by Composite 
Advantage and other members of the American Composites 
Manufacturers Association (ACMA), are already being used to 
rebuild and repair our crumbling infrastructure and corroding 
assets. This is a great example of American innovation rising 
to meet the challenges facing our Nation.
    The National Institute of Standards and Technology (NIST) 
is also working hard to help improve the resilience of American 
communities. From research into advanced materials and 
enhancing traditional materials like concrete and cement, to 
the development of tools, standards, and guidelines, NIST has 
been working diligently to improve the way transportation 
infrastructure decisions are made, once again putting its 
extreme brain power to work for the American people.
    State agencies like the Texas A&M Transportation Institute 
are making positive strides to improve transportation 
infrastructure resilience. And municipal authorities like the 
New York City Mayor's office are also involved in this 
important work.
    It is encouraging to see representatives from each of these 
organizations here today, as the work they are doing will 
undoubtedly benefit officials throughout the country as they 
plan and prepare to build resilient considerations into their 
transportation infrastructure decisions.
    I look forward to a productive and insightful discussion 
with our distinguished witnesses about the risks that extreme 
weather events and natural disasters pose to the American 
transportation infrastructure, research, and activities aimed 
at operationalizing and incorporating resilient considerations 
into the planning, design, and construction of infrastructure 
systems and assets, and innovating in exciting ways that we can 
improve the resilience of America's transportation 
infrastructure, both now and in the future.
    My line of work is development. We're contractors, and this 
has extreme importance to me, particularly as it relates to the 
new products.
    Thank you, Madam Chair, and I yield back.
    [The prepared statement of Mr. Norman follows:]

    Thank you, Chairwoman Sherrill, for convening this 
important hearing, and thank you to the witnesses for your 
testimony this morning.
    We are here today to examine how natural disasters and 
extreme weather events pose risks to transportation 
infrastructure and to assess the research and development 
targeted at improving the resilience of America's 
transportation infrastructure.
    Reliable and strong infrastructure is critically important 
to my home state of South Carolina. In the past five years 
alone, South Carolina has been impacted by a thousand-year 
flood and back-to-back hurricanes. In South Carolina we're also 
concerned about the impact that increased flooding frequency 
will have on our communities.
    To address our state's specific concerns, the Governor 
created the South Carolina Floodwater Commission. This 
commission is tasked with identifying short-term and long-term 
solutions to mitigate the impact of extreme weather, with one 
task force specifically focused on infrastructure resilience.
    I welcome the chance to consider the issue of 
infrastructure resilience and highlight the role the Federal 
government can play in ensuring that state and local 
communities have all the resources necessary to make the best 
decision for their infrastructure planning.
    Further, I'm looking forward to learning more about 
technologies and innovations that can improve the resilience of 
America's Transportation infrastructure systems and assets-from 
advanced composite materials to additive manufacturing with 
cement and concrete.
    We will also hear about some of the ambitious initiatives 
being undertaken at Federal, state, and local levels of 
government to incorporate resilience considerations into the 
planning, design, and construction of America's transportation 
infrastructure, both now and in the future.
    In recent years, much of this country's transportation 
infrastructure has started to show its age. Across the country-
from coastal communities to landlocked states-roads are in 
disrepair, bridges are collapsing, and tunnels are crumbling.
    Fortunately, great work is being done at the Federal, 
state, and local levels of government, within industry, and 
among academia to improve transportation infrastructure 
resilience.
    Composite materials-like those manufactured by Composite 
Advantage and other members of the American Composites 
Manufacturing Association-are already being used to rebuild and 
repair crumbling infrastructure and corroding assets. This is a 
great example of American innovation rising to meet the 
challenges facing our nation.
    The National Institute of Standards and Technology (NIST) 
is also working hard to help improve the resilience of American 
communities. From research into advanced materials and 
enhancing traditional materials, like concrete and cement, to 
the development of tools, standards, and guidelines, NIST has 
been working diligently to improve the way transportation 
infrastructure decisions are made, once again putting its 
extreme brain power to work for the American people.
    State agencies like the Texas A&M Transportation Institute 
are making positive strides to improve transportation 
infrastructure resilience. And municipal authorities like the 
New York City Mayor's office are also involved in this 
important work.
    It is encouraging to see representatives from each of these 
organizations here today, as the work they are doing will 
undoubtedly benefit officials throughout the country as they 
plan and prepare to build resilience considerations into their 
transportation infrastructure decisions.
    I look forward to a productive and insightful discussion 
with our distinguished witnesses about the risks that extreme 
weather events and natural disasters pose to America's 
transportation infrastructure, research and activities aimed at 
operationalizing and incorporating resilience considerations 
into the planning, design, and construction of infrastructure 
systems and assets, and innovating and exciting ways that we 
can improve the resilience of America's transportation 
infrastructure, both now and in the future.
    Thank you, Madam Chair. I yield back.

    Chairwoman Sherrill. Thank you, Representative Norman.
    And if there are Members who wish to submit additional 
opening statements, your statement will be added to the record 
at this point.
    [The prepared statement of Chairwoman Johnson follows:]

    Thank you Madam Chair, and I would like to join you in 
welcoming our witnesses this morning.
    In the 116th Congress, the Science Committee will be 
examining both the science of climate change and its impact on 
our society. Transportation infrastructure is critical to our 
national economy and our way of life, but it is vulnerable to 
climate change. If we do not prepare our transportation systems 
effectively, the damage will be enormous.
    As a senior Member of the Transportation and Infrastructure 
Committee, I am very familiar with the challenges facing our 
transportation infrastructure. And it has become increasingly 
clear to me that climate change will be one of the most 
consequential and complex challenges. Climate implications 
exist for every type of transportation asset: highways and 
roads, bridges, railroads, airports, tunnels, ports and more. 
Every region of America is being affected: north and south; 
urban and rural; coastal and inland. The time has come to use 
the scientific tools at our disposal to adapt our 
transportation infrastructure in order to avoid the worst 
effects of a changing climate.
    Elevating the use of science in policymaking is a priority 
for this Committee, and the issue of transportation resilience 
is a perfect example of why that is so important. 
Transportation assets are designed and built to operate over 
extremely long timespans - multiple decades and sometimes as 
long as 100 years. As a result, today's transportation planning 
decisions are not only about us - they will affect our great-
grandchildren. If transportation planning does not incorporate 
climate resilience into its calculations, the vulnerabilities 
of our transportation infrastructure will become a permanent 
feature of American life. We must work to ensure that the most 
advanced climate research findings are integrated into 
transportation planning frameworks.
    I also want to highlight the importance of mobilizing the 
nation's research enterprise to promote transportation climate 
resilience. At a federal level, this means encouraging the 
Department of Transportation and NIST to carry out research on 
how a changing climate threatens transportation assets. It also 
means prioritizing climate resilience research through federal 
grant programs such as DOT's University Transportation Centers 
program, which is a longstanding area of interest for the 
Committee. The UTC program supports cutting-edge transportation 
research at academic institutions around the country. UTCs like 
the one led by Mr. Winfree at Texas A&M are conducting some of 
the most innovative transportation research in the world. We 
want to make sure that the fruits of their labors, and the 
efforts of other forward-looking universities, professional 
societies and engineers, are being shared effectively with 
cities and states around the country.
    Preparing America's transportation infrastructure for the 
impacts of climate change is one of the major economic 
challenges facing our country, and there is much to be done.
    Thank you, and I yield back to Chairwoman Sherrill.

    Chairwoman Sherrill. At this time, I would like to 
introduce our four witnesses. Ms. Susanne DesRoches is the 
Deputy Director of Infrastructure and Energy at the New York 
City Mayor's Office of Resiliency and Office of Sustainability.
    Mr. Gregory Winfree is the Agency Director for the Texas 
A&M Transportation Institute and former Assistant Secretary of 
the U.S. Department of Transportation.
    Mr. Jason Averill is the Chief of the Materials and 
Structural Systems Division of the Engineering Laboratory at 
the National Institute of Standards and Technology or NIST.
    And our final witness, Mr. Scott Reeve, is the President of 
Composite Advantage. Today, Mr. Reeve is speaking on behalf of 
the American Composites Manufacturers Association of which his 
company is a member.
    As our witnesses should know, you will each have 5 minutes 
for your spoken testimony. Your written testimony will be 
included in the record for the hearing. When you all have 
completed your spoken testimony, we will begin with questions, 
and each Member will have 5 minutes to question the panel.
    We will start with Ms. DesRoches.

                 TESTIMONY OF SUSANNE DESROCHES,

         DEPUTY DIRECTOR FOR INFRASTRUCTURE AND ENERGY,

         NEW YORK CITY MAYOR'S OFFICE OF RESILIENCY AND

                    OFFICE OF SUSTAINABILITY

    Ms. DesRoches. Good morning. My name is Susanne DesRoches, 
and I'm the Deputy Director for Infrastructure and Energy in 
the New York City Mayor's Office of Resiliency. On behalf of 
the Mayor and the city of New York, I would like to thank Chair 
Sherrill and Ranking Member Norman for the opportunity to speak 
today.
    Nearly 7 years ago Hurricane Sandy hit New York City with 
unprecedented force, tragically killing 44 New Yorkers. Over 2 
million residents were without power, some for weeks. Fuel 
shortages persisted for over a month. Subway and rail tunnels 
were closed for days. Our airports were closed to passenger and 
freight traffic, and our ports sustained considerable damage. 
Sandy caused $16 billion in damages to our region's 
transportation network, which is vital to our regional and 
national economy.
    Our national transportation system faces climate-related 
risks. The Fourth National Climate Assessment released last 
year, of which I co-authored the transportation chapter, found 
that impacts of climate change threaten the very existence of a 
reliable, safe, and efficient U.S. transportation system. 
Critical port, rail, and highway infrastructure are vulnerable 
to sea-level rise across the country in places like Houston, 
Texas; Long Beach, California; and Mobile, Alabama. Thirteen of 
the Nation's 47 largest airports have a runway within reach of 
moderate-to-high storm surge today. Inland flooding threatens 
up to 4,600 bridges across the U.S. by 2050. Climate change 
risks are not just flooding-related. Transportation will be 
impacted by rising temperatures through bridge stress, 
increased delays, buckled rails, and roadways and compromised 
worker safety.
    New York City's regional transportation network is a large 
legacy--complex legacy system that is particularly vulnerable 
to the coming risks of climate change. Already, 12 percent of 
our roadway network is at risk. By 2100, 20 percent of lower 
Manhattan streets could be subject to tidal flooding daily.
    Our transportation network is more resilient than before 
Sandy. Regional transportation agencies have implemented 
resiliency measures for our subways, trains, airports, ports, 
and tunnels. In New York City we are raising some of our most 
flood-prone streets and making them more resilient through 
elevated traffic signal controllers. We are ensuring multi-
stakeholder coordination through our Climate Change Adaptation 
Task Force established over 10 years ago to address 
infrastructure interdependencies and the risk of a changing 
climate.
    City government is building stronger, more resilient 
facilities and infrastructure using forward-looking climate 
data from the New York City climate resiliency design 
guidelines. Last, we are partnering with FEMA (Federal 
Emergency Management Agency) to develop future flood hazard 
mapping products, the first of their kind in the Nation.
    Much has been done but much work remains. Congress can play 
an important role to ensuring the long-term resiliency of the 
cities and of our Nation's transportation network in three main 
ways. First, we encourage Congress to pass legislation that 
requires the use of forward-looking climate data in all Federal 
investments--infrastructure investments. Guidance to reach this 
goal were first articulated in Executive Order 13690 from 2015 
on floodplain management, which was revoked in 2017. Making 
this guidance law would reestablish this important standard and 
make it permanent. Taking this one step further, Congress 
should require that all infrastructure projects using Federal 
dollars use forward-looking climate data.
    Second, the city commends Congress' passing of the Disaster 
Recovery Reform Act of 2018, which allocates 6 percent of a 
community's disaster expenses from the previous year to invest 
in pre-disaster mitigation. We urge Congress to expand this 
program, further enabling Federal disaster aid to support 
resiliency investments before disaster strikes.
    Finally, we urge Congress to increase funding for freight 
and public transit infrastructure. One critical infrastructure 
is the long-overdue rail link between New York and New Jersey 
referred to as the Gateway tunnel. This project would vastly 
strengthen this vulnerable transportation line that links the 
entire Northeast Corridor.
    In conclusion, Congress has the opportunity to rethink how 
Federal Government supports the transportation needs of cities 
and communities across the country and to ensure that resilient 
investments made today provide value for all Americans for 
generations to come.
    Thank you for the opportunity to testify today, and I'm 
happy to answer any questions.
    [The prepared statement of Ms. DesRoches follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Sherrill. Well, thank you. And thank you so much 
for your timeliness. That was almost exactly 5 minutes. That 
was perfect.
    And next we'll hear from Mr. Winfree.

                TESTIMONY OF GREGORY D. WINFREE,

          DIRECTOR, TEXAS A&M TRANSPORTATION INSTITUTE

    Mr. Winfree. Good morning, Chairwoman Sherrill, Ranking 
Member Norman, and Members of the Subcommittee and staff. Thank 
you for inviting me to testify regarding transportation 
infrastructure resilience and transportation research. My name 
is Greg Winfree, and I'm the Agency Director of the Texas A&M 
Transportation Institute, also known as TTI. Prior to joining 
TTI in 2016, I served as the Assistant Secretary on the U.S. 
Department of Transportation's Office of the Assistant 
Secretary for Research and Technology.
    Established in 1950 and a member of the Texas A&M 
University system, TTI is a State agency and largest and most 
comprehensive university-affiliated transportation research 
center in the United States. TTI has conducted work in all 50 
States and 51 countries. Our system Chancellor John Sharp was 
appointed by Texas Governor Greg Abbott to lead the Rebuild 
Texas Commission formed to help rebuild our State's 
infrastructure damaged by Hurricane Harvey in 2017.
    Between 1980 and 2017, the U.S. was hit by 227 weather-
related disasters that caused more than $1 billion in losses. 
Ninety-eight of those happened in the State of Texas. More than 
one-third or 91 of those disasters struck between 2010 and 2017 
with nearly half striking Texas directly. Hurricane Harvey was 
the costliest in history leaving behind $190 billion in damage. 
Robust research efforts must put--must be put into place to 
change the traditional ways in which we design, build, and 
maintain our infrastructure, so I'd like to share a few 
examples of TTI research outcomes that plan for and mitigate 
these devastating occurrences.
    Additional projects like these are critical to transforming 
our infrastructure to deal with this new paradigm of extreme 
weather. In 2005, Hurricanes Katrina and Rita identified the 
critical need for safety--safely evacuating large numbers of 
coastal residents. Through TTI's University Transportation 
Center funding, UTC, researchers developed a Bluetooth travel-
time monitoring system that was implemented in 2010 to track 
real-time traffic flow on evacuation routes. Today, the system 
is installed on over 1,000 center-line miles of Texas highways.
    In 2017, TTI led a national symposium on the barriers and 
opportunities for infrastructure renewal. Members of the 
Presidential Administration and other high-level State and 
Federal officials, as well as private-sector stakeholders, were 
in attendance, including Congressman Bill Shuster, then 
Chairman of the U.S. House Transportation and Infrastructure 
Committee. One of the critical needs identified was 
transportation infrastructure resilience.
    In 2018, TTI developed the first-of-its-kind flood warning 
system that warns motorists in real time about locations where 
roadway flooding is likely to occur in the Houston area using 
data from 170 existing county-maintained flood sensors. 
Residents can view the warnings through the TranStar traffic 
management system website or mobile app.
    As a country, we've historically responded to weather 
disasters in a reactive way, turning to established 
rehabilitation and repair practices to return service to pre-
disaster levels. As demands on our infrastructure systems grow 
and the population and funding to meet these demands lag 
behind, that strategy is no longer sustainable. Instead, we 
must focus more on preparation and planning. This new mindset 
requires a different approach to making our existing and new 
infrastructure more resilient.
    While U.S. DOT (Department of Transportation) research has 
made strides in this effort particularly at the Federal Highway 
Administration, sufficient program-based resources and 
capabilities focused on transportation resilience are not 
currently in place. More innovative research-based and data-
driven solutions are required to make significant progress in 
learning how to build and maintain our infrastructure to last 
longer and withstand extreme weather events. Sample research 
needs include: Multidisciplinary research initiatives that 
involve not only the traditional approach of engineers and 
transportation planners but climatologists, hydrologists, and a 
host of other disciplines that don't normally work together.
    Examination of multiple data sets, including data collected 
on roadway flooding, GPS, and LIDAR (light detection and 
ranging), roadway elevation, climate, FEMA, and storm surge, 
just to name a few. These varying and often complex sets of 
data need to be put into a more useful and consistent format 
such as a data clearinghouse.
    More robust software models are needed to evaluate the 
impacts on infrastructure service life given an extreme weather 
event. The variety of resiliency studies and best practices 
developed by individual DOTs and the Federal Highway 
Administration in areas such as vulnerability assessment, asset 
management, and risk management should be shared and duplicated 
throughout the country. Performance measures for resiliency 
must be developed, and their correlation with other DOT 
priorities such as, safety and infrastructure condition, must 
be better understood so that scarce resources can be allocated 
most effectively.
    And, in closing, the UTC program is currently actively 
involved in transportation resilience research. Of the 35 UTCs 
awarded in the most recent competition authorized by the Fixing 
America's Surface Transportation (FAST) Act, seven list 
resilience as being a major focus of their programs in 
research, education, and technology transfer. As previously 
discussed, TTI's UTCs have made significant contributions to 
the state of practice in this area. This valuable program is 
contributing to the body of knowledge in transportation 
resilience, and this should continue as long as the topic falls 
within U.S. DOT and congressional priorities.
    Any severe weather event poses risk to our transportation 
system but also to our economy and our very existence. We can't 
prevent major weather disasters, but by investing resources 
into research that focuses on resiliency long before the 
disaster strikes, we will be far better able to weather 
whatever happens and whatever comes our way.
    So thank you for your time and attention. I will be happy 
to answer any questions you may have.
    [The prepared statement of Mr. Winfree follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Sherrill. Thank you.
    Mr. Averill?

                 TESTIMONY OF JASON D. AVERILL,

             CHIEF OF THE MATERIALS AND STRUCTURAL

                     SYSTEMS DIVISION, NIST

    Mr. Averill. Chairwoman Sherrill, Ranking Member Norman, 
and Members of the Subcommittee, I'm Jason Averill, Chief of 
the Materials and Structural Systems Division at the Department 
of Commerce's National Institute of Standards and Technology or 
NIST. NIST works at the frontiers of measurement science to 
address complex measurement challenges on every scale. In my 
division, we focus our efforts from the chemical properties of 
cement to buildings to the resilience of whole communities.
    Thank you for the opportunity to appear before you today to 
discuss NIST's programs focused on the resilience of 
transportation infrastructure.
    The 2017 U.S. hurricane season and the 2018 wildfires 
remind us that natural, technological, and human-caused hazards 
take a high toll on communities. The impacts can last long 
after the event. To help address these impacts, NIST manages a 
multifaceted Community Resilience program as part of our 
broader disaster resilience work. Principal among these efforts 
is support for science-based resilience planning. Effective 
planning can improve a community's quality-of-life, economic 
well-being, its ability to recover rapidly, and to build back 
better.
    To support community planning, we produced the NIST 
Community Resilience Planning Guide that provides a practical 
and flexible approach to help all communities improve their 
resilience by setting priorities and allocating resources to 
manage risks for their prevailing hazards. Using this guide can 
help communities to integrate resilience goals into their 
comprehensive economic development, zoning, and other local 
planning activities.
    In addition, the NIST community resilience Economic 
Decision Guide, or EDG, provides a standard economic 
methodology for evaluating investment decisions. The EDG 
quantifies the costs and benefits for the variety of resilience 
options that a community may be considering. To supplement the 
NIST Community Resilience research program, NIST has designated 
a Center of Excellence devoted to community resilience. The 
Center for Risk-Based Community Resilience Planning will 
accelerate the development of systems-level models and 
associated data to support community resilience decisionmaking.
    In addition, NIST is committed to working with our Federal 
partners to transfer research results to products and end-
users. For example, cities have partnered with NIST, EPA 
(Environmental Protection Agency), and used FEMA tools to 
develop proactive and integrated plans that address their local 
issues.
    Another critical part of community resilience is looking at 
infrastructure and building materials. Concrete is a widely 
used building material playing a principal role in 
transportation infrastructure such as bridges and roadways by 
providing strength, durability, and resiliency. These material 
properties can be linked to the performance of a key component 
of concrete, cement. NIST offers more than 20 types of cement 
Standard Reference Materials that help to ensure quality cement 
products in the integrity of structures around the globe.
    Looking toward the future, NIST is exploring exciting new 
opportunities in construction that additive manufacturing, AM, 
with cement-based materials offers. Metrology and standards 
used for traditional concrete construction are not suitable for 
AM, and NIST is doing research with our industry partners to 
assess the potential of various material systems for this area.
    NIST is also working on an advanced composite road-mapping 
effort that is focused on infrastructure. The resulting roadmap 
has the potential to lead NIST, other government agencies, and 
the industry toward wider acceptance and use of advanced 
composites for more resilient infrastructure.
    Following select disaster events, NIST conducts disaster 
and failure studies where engineers and scientists seek to 
learn from and prevent similar disasters in the future. Studies 
previously conducted by NIST have led to significant changes in 
building codes, standards, and practices to enhance the health 
and safety of the American public. NIST is currently 
investigating the effects of Hurricane Maria in Puerto Rico to 
better understand how the buildings and infrastructure 
performed and how we can improve that performance in the 
future.
    NIST has a long history of addressing industry needs 
through measurement science. Resilient infrastructure, 
particularly transportation, is the backbone of U.S. economic 
competitiveness, and NIST is proud to collaborate with 
industry, academia, and government agencies to meet critical 
national needs.
    I'll be pleased to answer any questions you may have.
    [The prepared statement of Mr. Averill follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Sherrill. Well, thank you so much.
    Mr. Reeve?

                    TESTIMONY OF SCOTT REEVE,

               PRESIDENT, COMPOSITE ADVANTAGE, LLC

    Mr. Reeve. Chairwoman Sherrill, Ranking Member Norman, and 
Members of the Subcommittee, on behalf of my company Composite 
Advantage and my fellow members in the composite--American 
Composite Manufacturers Association I appreciate the 
opportunity to testify today.
    This hearing comes at a critical time. For many years we 
have heard that our crumbling infrastructure was in desperate 
need of attention. That need has only intensified in the wake 
of increased episodes of severe weather and other environmental 
challenges. Confronting these challenges requires a new way of 
thinking about how we build and what are the best materials to 
use to enhance resiliency for preventive measures and not just 
reactive.
    Composite Advantage is one of over 3,000 manufacturers of 
fiber-reinforced polymer composites across the United States, 
including each of the districts represented on this 
Subcommittee. Composites--combinations of polymer resins and 
fiber reinforcements like glass and carbon--are used in a wide 
range of sectors. They were first widely used in boats and 
aircraft, but now companies like mine are using the materials 
to build high-performance and infrastructure components like 
bridge decks, rail platforms, and waterfront protection 
systems. Composites are stronger and more durable than 
traditional alternatives and have lower environmental impact. 
Many applications can be prefabricated to reduce installation 
times and can be fully sourced from American-made materials.
    When Superstorm Sandy devastated the Northeast, the 
Canarsie Tunnel between Brooklyn and Manhattan was flooded with 
7 million gallons of saltwater. This tunnel is used by a 
quarter million train passengers per day. The walls have 
corroded and need to be replaced. Traditional reconstruction 
would require a 15-month shutdown, but our company is 
manufacturing shells to line the tunnel walls and prevent the 
crumbling concrete from falling on the tracks. The shells can 
be installed without a full rebuild meaning 99 percent less 
demolition work and no shutdown. Even if the tunnel is flooded 
again, the composite shells will still do their job.
    Composites are being used in increasing quantities on 
America's waterways since the materials are forever resistant 
to water corrosion. Composites were used to rehabilitate the 
dock of the Statue of Liberty and repair and protect the Long 
Beach New York boardwalk after Superstorm Sandy. But composites 
can do even more. Using prefabricated bridge structures will 
minimize traffic disruption. And thanks to the elimination of 
rust and degradation, composites improve longevity and 
performance of these structures. Wraps can be externally bonded 
to decaying or damaged structures, restoring the strength of 
the bridge to its original level, again, with minimal traffic 
disruption. Composite rebar is making concrete bridges and 
tunnels resistant to corrosion that occurs with steel.
    In the Virgin Islands Hurricane Maria destroyed every 
utility pole that was wasn't a composite. Only the composite 
poles were left standing. Because of this real-life performance 
test, the Virgin Islands decided to rebuild their electric grid 
with composite structures to prevent future problems and avert 
the future costs.
    The strides made by our industry in a short period have 
been significant but more needs to be done. We need continued 
research such as that underway at institutions like Turner-
Fairbank and others on the next generation of composite 
solutions appropriate for much larger-scale applications. Most 
of all, we need to broaden awareness of composites and increase 
their deployment in infrastructure projects by helping 
engineers and asset owners to be more comfortable using these 
new materials.
    NIST, working with industry, has developed a roadmap of 
activities to achieve this goal, first by aggregating and 
validating existing standards and design data and then working 
to develop better models of durability. Coupled with a robust 
education plan, NIST's work will help provide assurance to 
engineers on how these new materials will perform under 
specific conditions.
    Legislation has been introduced by Congressman McNerney and 
Congressman Webster authorizing these activities by NIST in 
H.R. 2393. I encourage Members of both parties to support it.
    Finally, Congress should support innovative grant programs 
that foster new technologies and demonstrate how these 
technologies can make our transportation infrastructure more 
resilient.
    Bipartisan Members of the House and Senate have introduced 
legislation called the Innovative Materials for America's 
Growth and Infrastructure Newly Expanded (IMAGINE) Act, H.R. 
1159. This legislation would create new bridge and water 
infrastructure innovation grant programs, as well as direct 
needed research on innovative materials to facilitate broader 
use. I hope all Members will consider supporting this important 
measure.
    Opportunities abound to build a more resilient tomorrow and 
should not be wasted. The composites industry stands ready to 
work with Congress to further study, develop, and deploy real 
solutions to these real challenges.
    Thank you for your time.
    [The prepared statement of Mr. Reeve follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Sherrill. Thank you. Before we proceed, I would 
like to bring the Subcommittee's attention to two statements I 
received in preparation for our hearing. The first is written 
testimony from the Union of Concerned Scientists highlighting 
the need for climate resilience across all modes of 
transportation. The second is a letter from the Region Plan 
Association, RPA, describing the vulnerability of the Northeast 
Corridor and the importance of the Gateway project for the 
region's transportation network.
    Without objection, I am placing these documents in the 
record.
    At this point, we will begin our first round of questions, 
and I'll recognize myself for 5 minutes.
    Mr. Winfree and Ms. DesRoches, I want to start by talking 
about strategic planning. How can DOT elevate climate 
resilience as a strategic research priority?
    Ms. DesRoches. Thank you. So DOT and in particular FHWA 
(Federal Highway Administration) has been working on a climate 
adaptation program for a number of years. I think that the--all 
of DOT could elevate it as a strategic priority for the agency, 
and therefore, it would lend itself to the evaluation of 
Federal dollars, right? So if a project is getting federally 
funded, DOT could make the determination as to how resilient 
that project is and tie that to the Federal funds.
    Mr. Winfree. I certainly concur with my colleague, and I 
would only offer and add that DOT will do as Congress directs, 
so requiring DOT to have that as a strategic objective I 
believe would get the ball rolling certainly, but more 
importantly, it would help it become universally applicable 
across the Department. As Ms. DesRoches stated, Federal 
Highways is out on front on those issues right now, but in 
order for it to become a departmental objective, it needs to be 
placed on their to-do list in order to get that done.
    Chairwoman Sherrill. Thank you. And then, Mr. Winfree, you 
talked a bit about all the data out there and the collection 
being done. Do you have a sense--I think you spoke a bit about 
how there needs to be a better software for that and then 
better able to collate that data in one place for user ease. 
Can you talk a bit about how that would look and what, you 
know, options there are for that?
    Mr. Winfree. The talk around transportation now as we look 
at it more from the mobility standpoint is that it is the safe 
and efficient movement of people, data, and goods. So it's the 
data part that's lagging behind the movement of people and 
goods. So what we are championing and what you're hearing 
across the industry is a focus toward moving all of these 
disparate data sets into a clearinghouse so it's a two-part 
analysis. One, you have to know what data is out there and what 
data is usable, and that data has to be cleansed. And then once 
it's in a form and fashion that it can be used by the research 
community, that's when you start to see useful information 
coming out of those disparate data sets.
    So it's a bit amorphous right now. There's a lot of data 
out there. There are a lot of data streams. Vehicles are 
producing more data as they become more and more computerized, 
systems writ large, traffic operations systems, so there's a 
lot that's out there but starting to put a research focus and 
brilliant minds on it to start to amass what's out there and 
start to determine how it can be used most effectively is the 
initial step.
    But what we foresee is a data clearinghouse where traffic 
operators, traffic managers, asset managers, and researchers 
would be able to tap into and utilize that information.
    Chairwoman Sherrill. Thank you. And then, Mr. Reeve, 
Picatinny Arsenal in my district is really at the forefront of 
a lot of the military research and development, and I've seen 
them doing some amazing work with composite materials. I guess 
what I'm questioning is, how do we ensure that we are doing as 
much as we can to rebuild our infrastructure with the most 
resilient materials? What's being done? What more needs to be 
done?
    Mr. Reeve. And the first thing in terms of what needs to be 
done is--again, is part of what we do is just education 
awareness so that the people who, when they're making the 
decisions of what materials they can use, they have that 
information because a lot of times they're sitting there with, 
OK, they've listened to one place or another place, but where 
can they get all of that in one--at one location? So that's 
part of what I--we mentioned on the NIST side, to have that 
clearinghouse, that--sort of that impartial location in which 
the asset owners can get that information. There's a good bit 
out there of information but it's all in disparate places.
    Chairwoman Sherrill. Thank you. And I'm afraid I'm running 
out of time, but briefly, Mr. Averill, can you talk a bit about 
how NIST has provided that clearinghouse?
    Mr. Averill. So NIST has a long history of doing scientific 
work and taking the results of that, making it publicly 
available to both end-users, as well as people like the 
building codes and standards community to ensure that there's a 
strong scientific basis for any decisionmaking being done at 
the local level or any policy that's developed in, for example, 
building codes and standards.
    Chairwoman Sherrill. Well, thank you all so much.
    I now recognize Mr. Norman for 5 minutes.
    Mr. Norman. Thank you, Chairwoman Sherrill.
    Mr. Reeve, in your written statement you described some of 
the characteristics in composite materials and provide examples 
of resilience-based composite installations that have been used 
and are currently being deployed. Could you elaborate on what 
specific properties make composite materials a viable option 
for incorporating these into our infrastructure?
    Mr. Reeve. The--there's a number of applications and uses 
depending on what is the need. The first thing with the 
composite materials is the corrosion resistance, you know, 
saltwater, chemicals, de-icing compounds, even most acids do 
not affect the materials. So--and no matter what happens in 
that environment, that material is going to maintain its high 
strength.
    The other thing is there's a lot we can do in terms of 
design flexibility and lighter weight. So where the light 
weight comes into play is, again, in the installation side, 
minimizing the traffic--the disruption on traffic and the 
current infrastructure when they are having to do replacements 
or upgrades of the materials.
    And then the other thing is from an environmental point of 
view, the material's inert, so there's no chemicals that leach 
out of it, so there's not like with the treated wood or other 
things where people have to make use of it. So those are the 
big things, again, the materials will be there for 75 to 100 
years and maintain their strengths.
    Mr. Norman. You and I were talking earlier, you know, 
there's more needs than there is money to go around when you 
talk about this, so in your opinion what are the major barriers 
to actually getting the adoption and deployment of composite 
solutions particularly as it relates to incorporating them into 
the transportation infrastructure?
    Mr. Reeve. Again, in tying a little bit to that awareness 
and education side, one of the things that's worked in the past 
and we see as a big help in the future would be some 
demonstration projects with innovative materials, composite 
materials and other new materials that are out there because a 
lot of times when the engineers are having to make a decision 
and they're--of what materials they use and they have public 
safety in mind, they rely on what's been done previously. And 
so when there's the case studies out there of using a new 
material on this type of bridge or this type of sea wall, then 
they can look at that and say, OK, that works, I'm confident, 
I'm much more comfortable using that and deploying it because, 
again, they only have so much time and resources for making 
those decisions. So having those cases out there from some of 
those innovative projects for demonstration and view will help 
the most.
    Mr. Norman. Thank you. Mr. Averill, can you elaborate on 
the work at NIST and what it's doing to facilitate and 
accelerate the deployment of composite materials? As an 
example, how has NIST and the composite industry collaborated 
in the past, and has this collaboration been fruitful? And have 
you got plans to put this to work in the future?
    Mr. Averill. Sure. The most recent and specific example is 
where we partnered with the ACMA to do a roadmap that looked 
forward to what are the issues and barriers that might be 
present for use of composite materials, particularly for 
infrastructure applications. I came up with three main areas. 
One was looking at doing durability assessment and test data. 
The second was making that data available to researchers and to 
end-users, and the third was a piece on education and training. 
That roadmap is published and available on the NIST website so 
that the community can use that moving forward.
    We at NIST are looking at the various performance 
characteristics of lots of different materials. Most materials 
have various strengths and weaknesses. We want to ensure that 
we are able to characterize the performance of various 
materials so that we can make an informed science-based 
decision at the end-user level.
    Mr. Norman. Well, and I just urge you, what we hear at the 
local and State level are a lot of the decisions are made at 
the local level, and they're set in their ways with using a 
particular type of product that they've used just because they 
used it for years and the salesmen are good salesmen. So I 
would ask you to stay involved on a local level and ask 
questions like what tests do you need that I can do to help you 
make a decision.
    Thank you so much.
    Chairwoman Sherrill. Thank you. And now the Chair 
recognizes Congresswoman Bonamici for 5 minutes.
    Ms. Bonamici. Thank you, Chair Sherrill and Ranking Member 
Norman, and to all of our witnesses today.
    According to the Fourth National Climate Assessment, if we 
don't address our aging and deteriorating infrastructure by 
2025, we're talking about $3.9 trillion. We already have more 
than 60,000 miles of U.S. roads and bridges that are 
experiencing problems from extreme storms and hurricanes. And I 
was thinking about this hearing today as I was watching the 
national weather news.
    Most of today's infrastructure and building standards don't 
take into account future climate trends. Current levels of 
infrastructure investment are not enough to cover even the 
needed repairs and replacement now, so clearly, we have more 
work to do in our communities to prepare for and respond to the 
effects of the climate crisis.
    And I do want to note that the Department of Transportation 
was one of the 13 Federal agencies that contributed to the 
National Climate Assessment, so I'm disappointed that they 
were, according to what I understand from the Committee, not 
willing to cooperate today with this hearing. This Committee 
does have jurisdiction over the Federal research enterprise, so 
it's concerning that the Department of Transportation is not 
represented for this discussion today.
    Ms. DesRoches, I'm concerned about a lack of coordination 
among Federal agencies and the exclusion of localities in 
deciding where to direct future scientific research efforts on 
the effects of climate change on infrastructure, and I'm 
working on a bill to help provide States and local governments 
with science and best practices to prepare for and respond to 
the climate crisis. And so I want to ask you, if a city wants 
to access Federal climate data to help support their 
transportation resilience planning but like New York, they 
don't have an independent panel on climate change, is it 
obvious where to look, and how can Congress help make sure that 
this research is accessible and formatted in a way that cities 
and States can actually use it effectively?
    Ms. DesRoches. You know, I think that NOAA (National 
Oceanic and Atmospheric Administration) does an excellent job 
of providing climate data. I would say that your point is well-
taken. Localities need to be using forward-looking climate data 
if we're going to address the issues that you raised. So the 
most important thing is that the data is readily accessible and 
it's at least a regional level. Even our local data in New York 
City is good for about 100 miles around New York City, so it 
can be down-sampled to a regional level. And then that 
information does need to be made more accessible at the local 
level so that all of the things that we're talking about today 
where, you know, engineers are doing the--you know, what 
they've known at the local level for so long can be utilizing 
forward-looking climate data, which will in fact change the 
design strategies that we're implementing.
    Ms. Bonamici. Any suggestions on how we can best do that?
    Ms. DesRoches. So in New York City we've published climate 
resiliency design guidelines that lay out a step-by-step 
process for the design and engineering industry in order to 
take that climate data and apply it to the built environment. 
This is a really important tool. I think we could use that tool 
at a Federal level so that codes and standards actually get up 
to speed in terms of what we're looking forward to, not what we 
are seeing from behind.
    Ms. Bonamici. Thank you. Mr. Winfree, in my home State of 
Oregon the Transportation Research and Education Center, TREC, 
is leading research on the integration of transportation and 
land-use electric vehicles, resiliency of engineered 
structures, and transit service. It's a collaboration--the 
University Transportation Center--a collaboration of several 
regional schools, including Portland State University, the 
University of Oregon, and the Oregon Institute of Technology. 
So are these types of UTCs equipped to address the 
multidisciplinary research recommendations you outlined in your 
testimony? And how can the regional model of UTCs help define 
climate resilience for transportation systems across the 
country?
    Mr. Winfree. I think it's important to keep in mind how the 
competitions since the Moving Ahead for Progress in the 21st 
Century (MAP-21) Act have required the UTCs to be formulated so 
they're under a consortia model. So I think that's really at 
the root of what we're talking about. The region--region 10 I 
believe it is--is a consortia of those universities that you've 
identified, so it's not specifically for the region. I believe 
all of the 35 granted centers utilize the consortia model. So I 
am a huge fan and proponent for that. That was a change we made 
when I was Assistant Secretary, and I believe it's a change 
that you will hear is universally well-regarded in the research 
community.
    So I would say step one is, as reauthorization is under 
consideration, when you're looking at potentially refunding and 
hopefully funding at even greater levels the UTC program, that 
the consortia model remain a factor in that, as well as to keep 
the--to keep it a competitive process as well.
    Earlier, the UTCs were more legislative, you know, earmarks 
to use a pejorative term----
    Ms. Bonamici. Right.
    Mr. Winfree [continuing]. But what that had done in those 
instances were those centers were more aligned with the 
legislative priorities than U.S. DOT. So ensuring that DOT gets 
what it needs from the research community works best when it's 
a competitive model where the U.S. DOT is able to set forth 
what they're looking for from the research outcomes. And all of 
the centers work----
    Chairwoman Sherrill. OK. I think we're going to have to----
    Ms. Bonamici. That's----
    Chairwoman Sherrill [continuing]. Leave it at that. We're 
over time----
    Mr. Winfree. Yes, that's----
    Ms. Bonamici. Over time, but that's very helpful. I yield 
back.
    Chairwoman Sherrill. Thank you.
    Ms. Bonamici. Thank you, Madam Chair.
    Chairwoman Sherrill. And next, the Chair recognizes Mr. 
Waltz for 5 minutes.
    Mr. Waltz. Thank you, Madam Chairwoman.
    So hurricane season is on us. I represent the 6th District 
of Florida. It's on us again starting June 1, and we already 
have a subtropical storm Andrea out in the Atlantic, so here we 
go again.
    You know, in my area representing Daytona Beach, sea levels 
are expected to rise by 5 inches just in the next 15 years. I 
have nearly 70 miles between Volusia, Flagler, and St. Johns 
counties that are at risk and continue to be at risk by a 
series of storms. So, number one, I want to commend Governor 
DeSantis, my predecessor in this seat, for making the 
environment and resiliency a priority in his new 
administration. He has recently named a Chief Science Officer 
and plans to name a Chief Resiliency Officer for the State of 
Florida, and I want to give him due credit for that. I myself 
have joined the National Flood Coalition. So I think we are 
changing the nature of actually what we're doing on this side 
of the aisle to get things done.
    But, you know, in my State and certainly in my area, you 
know, this flooding issue isn't just homes. It's roads, it's 
evacuation routes. It's a military issue according to recently 
released DOD (Department of Defense) reports. So we truly need 
to take this on and get serious about it. And I'm certainly 
serious about it, and I know the Governor is serious about it.
    So the first question for you, Mr. Averill, given your 
research and based on your knowledge at NIST of the available 
technology to map flooding and sea-level rise and the materials 
available to build transportation infrastructure, specifically 
what types of technologies should we be using?
    And I understand, Mr. Reeve, your point that you made 
repeatedly, that this is really an education process. I'd be 
interested in your thoughts as well as specifics of what this 
Committee can do, what we can do from a Federal standpoint or 
encouraging our State colleagues to get that word out to our 
various builders and folks setting the codes at a local level.
    But what types of technology and materials should these 
vulnerable areas be using? And really, I think the white 
elephant in the room is planning going forward, should we be 
putting infrastructure in these flood-prone areas? But 
presuming that we continue to, give me some specifics on what 
we should use.
    Mr. Averill. Thank you. So at NIST we've worked a lot with 
communities because we recognize that at the end of the day 
decisionmaking for our built environment occurs at the local 
level. And so at NIST we've done a number of activities to 
support that decisionmaking, principally, our Community 
Resilience Planning Guide provides a structure for resilience 
planning and ensuring that it's got stakeholder input and that 
it's incorporating some of the other plans that communities do.
    We also do a lot of research, as I mentioned previously and 
discussed in my testimony----
    Mr. Waltz. Just not to interrupt you, do you find that that 
guide is actively being used? Is there a high level of 
awareness at the local level?
    Mr. Averill. We certainly are publishing it as broadly as 
we can. We are presenting it at conferences where people we 
think need to hear that, and we have a specific stakeholder 
outreach strategy to try to get that as broadly taken up as 
possible. We're also coordinating with other Federal agencies, 
for example, coordinating with RRAP (Regional Resiliency 
Assessment Program) to try to----
    Mr. Waltz. Just in the interest of time, do you have any 
metrics on it actually being used rather, I understand you're 
pushing it out, right, but do you have any metrics on local 
communities actually adopting what you're recommending?
    Mr. Averill. We have four or five communities that we're 
currently actively working with in partnership, and then we 
hear from----
    Mr. Waltz. Was that four to five?
    Mr. Averill. Yes, four to five that we're doing specific 
projects----
    Mr. Waltz. OK.
    Mr. Averill [continuing]. Side-by-side with, and then we 
periodically----
    Mr. Waltz. How do we broaden that? How do we make that more 
than four to five?
    Mr. Averill. Well, I think we need to continue to make the 
information available, and we're ready to work as opportunities 
arise.
    Mr. Waltz. Mr. Reeve, I think I'm out of time, but, Mr. 
Reeve, any comment from the private sector?
    Mr. Reeve. One comment on that where you tied on making 
some of that happen is the fact that when there is Federal 
funding that is part of the local project administrations, the 
LPA programs and other ones that are there is that you push 
down and say one of the requirements is that they reference and 
they take a look at the documents that are out there.
    Mr. Waltz. You're saying that's currently in place or needs 
to be in place?
    Mr. Reeve. That's--it needs to be in place. You know, there 
are certain things that get pushed down when Federal funding is 
involved, but if there are other ones in there, like I said, if 
you're looking at it from a point of view, looking at the 
resiliency side, then those are some of the ones, if it's not 
getting out there, that's at least a way in which you can----
    Mr. Waltz. Thank you.
    Mr. Reeve [continuing]. You could push it on them.
    Mr. Waltz. Thank you, Madam Chairwoman.
    Chairwoman Sherrill. Thank you. Hopefully, we can get back 
to some of these lines of questioning, but I do want to get 
everyone in with questions, so now the Chair recognizes Ms. 
Wexton for 5 minutes.
    Ms. Wexton. Thank you very much, and thank you to the 
witnesses for being here today. And I'm glad that Madam Chair 
mentioned continuity of questions because the gentlelady from 
Oregon brought up the UTC in her State, and my home State of 
Virginia, George Mason University, which is in Fairfax, is part 
of an excellent UTC, the Center for Integrated Asset Management 
for Multimodal Transportation Infrastructure Systems, which is 
a mouthful.
    And how various transportation assets integrate with one 
another as a part of the whole national network is really at 
the heart of the matter, I think, when we talk about climate 
resilience because we can't ensure that a community will 
tolerate climate impacts well if we address the roads but not 
the subway or other transit assets.
    And so, Mr. Winfree, given your experience at the Federal 
level and with the Transportation Institute, do you think that 
the various modes are coordinated well enough within DOT when 
it comes to the issue of climate resilience?
    Mr. Winfree. Certainly in my experience when I was there, 
the focus was on state of good repair, roads and bridges and 
crumbling infrastructure. Climate change, extreme weather was 
discussed, but the leadership was through Department of Energy 
and EPA. I can't exactly describe what the thinking is at DOT 
as we sit here today, but I would certainly--I think it's fair 
to say that there could be better coordination led by the 
Secretary's office to make it more of a universal issue for the 
Department.
    Ms. Wexton. So would you say that, historically, it's been 
more of a damage control looking back and just fixing the 
damage that's already been done rather than prospectively 
trying to make sure that our assets are safe for the future?
    Mr. Winfree. Absolutely. And I think that's still the case 
from the approach other than New York City and other 
municipalities, from the Federal level a lot of the focus is on 
recovery, disaster recovery, getting systems back up as quickly 
as possible and not enough research into how do you harden 
assets, how do you prepare for the inclement weather events 
that we know are coming. That's still lagging.
    Ms. Wexton. And related to that, also in my State of 
Virginia we're seeing more flooding, recurrent flooding--
increased, frequent high precipitation in a short amount of 
time. And I know we're not alone in this. And we are also at 
risk for sea-level rise and really vulnerable in that regard. 
But we're seeing it across the Commonwealth, and I would 
imagine other folks are as well.
    Ms. DesRoches, how might insufficient stormwater management 
systems accentuate the risk to road systems and other 
transportation assets in cases of increased precipitation and 
sea-level rise? How do those infrastructure commitments 
integrate with one another?
    Ms. DesRoches. So it's a complex system in that both of 
those tend to be, at least on East Coast, historical systems 
where they're legacy systems. They were designed, you know, for 
what we saw in the past. And yes, when we have more increased 
precipitation with sea-level rise that the coastal areas are 
being inundated by both types of risks. I think that integrated 
planning between stormwater and roadways and our transportation 
infrastructure could be stronger and needs to be stronger. 
We're working hard on that in New York City and are always 
happy to share best practices.
    But first, we need to understand better how those systems 
are affecting each other, and those studies need to be done 
first in order to figure out how the drainage system and the 
roadway network can actually increase resiliency. Can we make 
upland areas more absorbent to try to hold back some of that 
precipitation through green infrastructure and other measures? 
How do we think about not just the roadway but the land use 
around the roadways and our transportation network in order to 
be able to withstand more of those increased precipitation and 
the sea-level that you talked about.
    Ms. Wexton. Thank you very much. Do any of the other 
witnesses have any thoughts on that issue?
    Mr. Reeve. My only other comment would be somebody had 
mentioned on the economic side, I think that's important in the 
decisionmaking as you look at what's the economic impact on 
this part of the infrastructure versus another one when making 
those decisions. So, you know, again, and limited resources put 
that preventive measures on the ones that are, again, the most 
critical.
    Ms. Wexton. Thank you very much. And I see my time is up, 
so I yield back.
    Chairwoman Sherrill. Thank you. And the Chair recognizes 
Mr. Casten for 5 minutes.
    Mr. Casten. Thank you, Chair and Ranking Member Norman, for 
giving me the opportunity to waive onto this Subcommittee 
today. This is critically important stuff, and I know I always 
tell people that the problem with our little tiny human brains 
is that we really have a hard time with nonlinear trends and, 
you know, the climate is not only changing but the rate of 
change is accelerating. We know this intuitively because these 
1,500-year floods seem to happen every year now, especially in 
coastal areas, and yet we still have zoning rules based on 
those historic pieces of data where we celebrate, you know, 
people who project linear trends when in fact everything is 
accelerating. To me, that strikes me as a problem because we 
build our infrastructure on the assumption that history is a 
predictor of the future, and in fact it's not.
    And the private sector has in many cases started to figure 
that out, and in 2017 Argonne National Labs that's located just 
south of my district in Illinois partnered with AT&T to produce 
a ``Road to Climate Resiliency'' white paper that detailed the 
results of a project that they did that used three climate 
models, 30 years of history, and months of time on Argonne 
supercomputers layered over where AT&T's physical assets were 
to figure out a long-term climate resiliency map.
    Madam Chair, I'd like to ask unanimous consent to enter 
into the record the white paper entitled, ``The Road to Climate 
Resiliency'' on the joint study conducted by Argonne and AT&T.
    Chairwoman Sherrill. Without objection.
    Mr. Casten. Mr. Winfree, given what the private sector is 
already doing, do you agree that the Department of 
Transportation should make an effort to incorporate similar 
Federal climate models into their planning and prioritization 
activities as much as possible?
    Mr. Winfree. I don't think there's--you can't--you won't 
solve the issue by not looking at every available resource, and 
I believe every scientific study, every peer-reviewed work that 
is done in this space should be on the table. We know from a 
resource perspective that DOT, the Federal Government writ 
large can't answer every question in every instance, so the 
more information on the table, the better I think is the proper 
approach, particularly, as you pointed out, since these issues 
are not linear. We need to look at them from every angle and 
try and come to some common approaches and some common 
understanding as to how best to address it.
    Mr. Casten. Are you aware that DOT is doing anything like 
what Argonne and AT&T have done of this level of model analysis 
as they think about where they're going to build and how 
they're going to build?
    Mr. Winfree. That is not an area of research that I'm 
familiar with. Like I said a bit earlier, my understanding was 
EPA, Energy, and other departments and agencies were out in 
front and that DOT was going to be capitalizing upon the 
results of that research.
    Mr. Casten. Mr. Averill, what can NIST do to start to 
incorporate this modeling into their resilience work in a more 
complete way? Are you guys partnering with the national labs? 
Can you work some of this into your standards that you're using 
for building codes?
    Mr. Averill. Well, at NIST we are a nonregulatory agency, 
so what we do vis-a-vis standards and building codes in 
particular is we take the results of our research and we 
participate in those consensus processes, but those are run 
through, for example, the International Code Council or various 
standards, organizations as separate nongovernmental entities. 
So we are certainly interested in making sure that our research 
is answering the questions that we know that the end-users have 
and that would be most useful for addressing the issues you 
raised.
    Mr. Casten. So a question then for all of you or all of you 
or any of you, how do you define success in resiliency? I mean, 
I get that these are consensus processes, but if we're going to 
sit there and say a community is going to be resilient or a 
standard is going to be designed for resilience, what's the 
metric you design for?
    Ms. DesRoches. OK. I'll take that. So in New York City the 
way that we are looking to the built environment is to say this 
is how long the useful life of that asset will be, and when we 
design and engineer that asset, we use climate change data in 
order to build that asset to last the whole length of its 
useful life. So we're utilizing the existing climate models and 
basically saying, OK, at 2050 sea-level rise will be roughly 
here. We will build that asset to that height.
    So while, you know, we--you can't totally predict, there is 
uncertainty in those climate projections. We can't totally 
predict exactly to the inch how high sea-level rise will be in 
2050. We have a good range, and we understand where that 
trajectory is going, and we feel strongly that we need to be 
incorporating that data today in order to ensure that asset 
lasts as long as it can.
    Mr. Casten. I think I'm of time, so I will yield back. 
Thank you.
    Chairwoman Sherrill. Thank you. The Chair now yields to Mr. 
McAdams for 5 minutes.
    Mr. McAdams. Thank you, Chair Sherrill and Ranking Member 
Norman. We thank you for holding this very important hearing 
and helping us to talk about some of the impacts of climate 
change and climate resiliency.
    And I represent Utah, and so in the Salt Lake and Utah 
valleys we're feeling the effects of climate change in several 
different ways. Most obvious is the pollution that hangs over 
the valley floor, especially in the winter, causing a litany of 
health impacts. Utah is one of the fastest-growing States in 
the country right now, and in particular the Wasatch Front that 
I represent is experiencing the bulk of that growth.
    With more people comes more cars on the road, more 
passengers in our trains, and more flights coming in and out of 
our Salt Lake International Airport. It also means more 
pollution and wear and tear on our infrastructure. So while the 
Utah Department of Transportation and other organizations like 
the Utah Transit Authority, our MPO (Metropolitan Planning 
Organization), and Wasatch Front Regional Council and 
Mountainland MPO, I think they're rising to the challenge of 
addressing this growth. The problem becomes significantly 
harder when we also factor in climate change, intense 
fluctuations in heat, more intense weather patterns, et cetera. 
Given the elevation of my district, I don't think the sea-level 
rise is going to be an impact to our transportation 
infrastructure per se.
    But, you know, one of the things that Utah has done really 
well, we were one of the first areas in the country to adopt 
what we call the Wasatch Choice for 2050, a unified 
transportation plan that incorporates our transit authority, 
our local government, State government, our DOT in a unified 
transportation plan. And it looks at our growth projections 
through the year 2050 and what infrastructure investments we're 
going to need to accommodate that growth, both maintenance and 
then new capacity on our roads.
    I guess my first question for the panel is, with extreme 
weather--and I'm thinking in particular in a cold area that I 
represent, the freeze-thaw cycles, and we look at the impact 
and the life of an asset. And, you know, I think when we looked 
at this we have a number of what we need for transportation 
infrastructure investment, and clearly there's not enough 
funding. We're funding what we can, but we don't have enough to 
fund that infrastructure that we need, and so you know, we need 
the transportation funding at the Federal level. But I'm 
wondering if we also need to evaluate the life of our assets 
with climate change and if the life of our assets may not be as 
long as projected with the increased freeze-thaw cycles. And 
can you help me to quantify that impact?
    Mr. Winfree. Well, certainly at TTI, you know, we're one of 
the lead institutes that look at pavement materials whether 
they're cementitious, whether they're asphalt, so there's no 
substitute for testing and analysis at the front end in all 
weather and climate conditions.
    Now, I know Carlos Braceras, your Executive Director, he's 
keenly aware of that and is a partner with AASHTO (American 
Association of State Highway and Transportation Officials) and 
with NCHRP (National Cooperative Highway Research Program) in 
that regard, but the testing and analysis in all climate 
conditions, there's just no replacement for that. And there are 
several UTCs that focus on cold-weather climate impacts for, 
again, asset, you know, installation, as well as asset 
performance. So writ large, performance measures are needed 
across the board.
    Mr. McAdams. What can we do at the Federal level 
specifically with the Department of Transportation to support 
our State agencies in developing climate-resilient 
infrastructure plans, recognizing that they will differ from 
region to region then?
    Mr. Winfree. There are a lot of resources that are out 
there now. Better publication and coalescing them into a form 
and fashion that can be used by the practitioner has always 
been the challenge. I'm aware of the Volpe National 
Transportation Systems Center having amassed resources, but I 
don't know about the publication of that end report. So again, 
the work is out there, the research is out there, but getting 
it in the form and fashion that's easy and accessible for the 
practitioner is the challenge.
    Mr. McAdams. You know, I think as we are looking at 
investing in maintaining our transportation infrastructure and 
how expensive that is and knowing that every tax dollar is 
precious and important and competing with other priorities, for 
me, the importance of planning ahead, understanding the impacts 
of climate change, and then investing in climate resilience 
will make sure that we use those tax dollars efficiently and as 
effectively as possible, and then also to improve and maintain 
the quality of life whether it's reducing the wear-and-tear on 
the road or the capacity of our transportation systems to 
handle the growing population that we serve effectively.
    So thank you, and I yield back.
    Chairwoman Sherrill. Thank you. And now the Chair will 
recognize myself for another round of questions for 5 minutes.
    Just to kind of give an overview of what I'm hearing, we 
have a lot of programs going on. We have the programs going on 
in the New York City area, what I like to call the suburbs of 
north Jersey. We have the work going on at many of our 
university transportation centers like at Texas A&M, and I know 
we have it at Rutgers. We've heard from different Members today 
about those centers. We have NIST doing research into composite 
materials. What we don't seem to have is a real understanding 
of how, if you are a small to medium-sized city or municipality 
and want to go do some infrastructure work, how you would 
engage with all this research or all of these new composite 
materials? And it makes sense what Mr. Norman is saying that 
generally what you probably do is just use the same contractor 
you've always used with the same materials that you've always 
used and probably getting the same results that you've always 
gotten.
    So I think I would--you know, to the extent that we have 
you here today, Ms. DesRoches, when you're looking at planning 
throughout the greater metropolitan area, what engagement did 
you have with NIST, what engagement did you have looking at 
cost--or does the region have looking at new composite 
materials or is it just a factor that the city is large enough 
to really conduct its own research and develop its own tools 
for use? Or do you interact with these university research 
centers or NIST or any of our private people who are working in 
this area?
    Ms. DesRoches. Sure. Well, certainly, we do interact with a 
number of Federal agencies. You know, I would say I was a 
partner on the community resiliency planning guide when it 
rolled out to different sectors when we were working on 
guidance for transportation specifically. TRB, Transportation 
Research Board, is another place that has been doing some great 
research. They set up a resiliency section, which is the first 
new section they've set up in I think over 10 years. And that's 
really the--and I'm on that section. That's really meant to 
organize all that research that TRB does across many different 
committees with a resiliency lens.
    So, you know, I think that no locality can do this on their 
own. We do need the research from the institutions that we've 
been discussing today. I do think, however, that some of the 
standards-setting industry groups that's a consensus process is 
not moving fast enough in order to incorporate this future-
looking climate data. I think that it takes a long time for 
those standards boards to set new standards, to modify 
standards, and all of these standards still use historical 
weather data. And I think until we change that, the localities 
will not have enough resources to be able to change how they 
design, but if the standard changes and the standard says you 
need to be designing for extreme heat, then that will change 
the design outcome.
    So I think that we both need these resources that we've 
been talking about in the research, but we also need that 
research to be plugged into the standard sooner and that 
there's a level of urgency there that needs to be sped up.
    Chairwoman Sherrill. And I sit on the Armed Services and 
come from somewhat of a DOD background, and in that department 
there's always a lead agency, whether it's the Navy or the Army 
or the CIA or Homeland Security. In this space, in this 
resiliency space we've heard that the EPA had a hand in it, 
we've heard of DOT, but when we're talking infrastructure 
resiliency, who are we looking to to be the lead agency in this 
space? And that question is for all of you.
    Mr. Winfree. Well, I think that raises challenges. The term 
infrastructure is extraordinarily broad. If you're talking 
transportation, then certainly I think DOT should be at the 
lead, but one of the things I was considering on the way here 
are the interdependencies between really asset owners, right? 
So particularly in New York, New Jersey, whenever there's a 
watermain break, it impacts the road network. Well, the water 
company or the water transmission folks don't necessarily work 
hand-in-glove with streets and maintenance or with the highway 
department. So getting across those--really lack of 
communication from agency to agency, from department to 
department is hugely important to make sure everybody's at the 
table. So, you know, again, infrastructure is a broad term. We 
need some discipline as to what falls in those categories so 
that we can prioritize.
    Chairwoman Sherrill. Thank you. I think what we're 
struggling with a bit here is many of us have worked on 
infrastructure projects--I'm sure Mr. Norman has in all your 
development--in our home districts, and we've seen how, you 
know, I think we're a little concerned about more regulation 
because we've seen how some outdated or poorly functioning 
regulation is really harming. So to the extent we could have--I 
think what I'm looking for is a group to take the lead and then 
start to really dig down into how we can streamline the 
regulations but then make sure we have the regulations that are 
forward-looking, that are looking into climate change. I do 
worry about just adding layers of standards and regulations 
over poorly functioning ones because then we seem to kind of 
butt heads with what we're trying to accomplish in our 
districts. So it sounds like the place to start is with the 
DOT, who is unfortunately not in attendance today. But thank 
you.
    Mr. Norman, would you have further comments?
    Mr. Norman. Yes, just one question for each of you. You 
know, when we have an issue with what we're building, and I go 
to the ones that are actually doing the work, the contractors, 
the individual people doing the layers. From where you sit, and 
it's pretty much back on what Mikie was talking about. From 
where you sit, what should we be doing in our roles? If you 
were sitting in Congress now, knowing what you know in your 
different departments, what should we be doing?
    Mr. Reeve. From my side, you know, what we see right now 
is, most of the infrastructure is just acquisition cost-based, 
OK? What's--it's low bidder, OK? So a contractor is going to 
bid--to win the job, he's going to bid with some of the lower-
cost materials, which, again, in a lot of cases is the same 
thing that they've done in the past. And often, you know, if 
you're looking for, you know, on the procurement side to say 
you need to consider the resiliency and the lifecycle costs, 
the longer-term maintenance costs in making that decision, so 
you pick something that even though it may cost, you know, a 
premium, 10, 15 percent now, it's saving you in 30 years from 
doing it over again. And so that's a change somewhat in--just 
in the procurement practices.
    Mr. Norman. So you would recommend I do what?
    Mr. Reeve. Recommend that in those cases--in the 
infrastructure side say that you need to consider, OK, a life-
timeframe of 30 years, 50 years, 75 years when you're making 
the choices of what is the lowest--you know, lowest-cost 
solution and that it's not just today's cost, it's what's this 
going to cost you in the future. And part of that future cost 
is making sure you account for what's going to be those future 
weather events.
    Mr. Norman. So advocacy, is that right? OK. Mr. Averill or 
Mr. Winfree?
    Mr. Averill. I agree with my colleague here. The Economic 
Decision Guide is a formal framework for accounting for 
economically decisions that might include lifecycle analysis. 
We've been discussing with communities this notion of a 
resilience dividend, so it's the idea that you might be 
designing for a particular event in mind over a long time 
horizon, but in doing so, you actually get a day-to-day benefit 
that's guaranteed that you don't have to condition on the 
probability of the event that might be, for example, less 
maintenance or better resistance to the frequent sort of annual 
events that you're going to see. So using a more formal and 
lifecycle-type cost analysis would be helpful.
    Mr. Winfree. And I would certainly follow on Mr. Reeve's 
point. I think the flip side of what he was talking about is 
lessening the fear of taking risks. Contractors by definition 
take the conservative view because they don't want to get sued, 
they don't want to have a bad outcome, they don't want to get 
blamed for something going wrong that could have been 
innovative. So it prevents a closer nexus between the research 
community and the contract community that does the work because 
they are risk-averse. So if there is any kind of measure that 
provides guarantees on the backend or lessens the risk for the 
contractor community I think is a benefit.
    Ms. DesRoches. And I'll just add briefly that, you know, as 
I was talking about in my testimony, if we ask questions about 
resiliency as they relate to funding, you will get more 
creative answers, and that's another way to raise everyone's 
awareness. So if I'm asking for this amount of Federal funding 
for a bridge, if the question comes back how is that bridge 
resilient to extreme rain events that we expect in that area, 
you will get a different answer than what the standard built 
practice is today.
    Mr. Norman. Thank you so much. You all have and very 
informative, and I have no further questions.
    Chairwoman Sherrill. Thank you, Mr. Norman.
    I'm about to go to my colleague Mr. Beyer, but I do have 
one quick question for all of you since you're sitting here 
that occurred to me. To your knowledge, has there been any work 
done when looking at the plans for the Gateway tunnel project 
on new, more resilient materials, composite materials?
    Ms. DesRoches. I'm not aware. I don't have that information 
with me, and so it's outside of my area of expertise, the 
specific tunnel design.
    Mr. Reeve. You know, I personally don't know, but I will--
you know, through the association, will see if any of the 
other, you know, suppliers out there have been approached.
    Chairwoman Sherrill. Thank you. Did you have something, Mr. 
Winfree?
    Mr. Winfree. Yes, I was just going to say that I do know 
that lessons learned from the tunnel failure are being utilized 
in the forward planning, right, so some of the things that were 
discovered were the solid-state machinery down there failed 
where some of the 100-year-old tube equipment survived the 
water, right? So there are lessons learned that are being 
thought-forward about how to install the Gateway operation.
    Chairwoman Sherrill. Thank you very much.
    I now recognize Mr. Beyer for 5 minutes.
    Mr. Beyer. Madam Chair, thank you very much. And I'm sorry 
I missed most of the hearing. We were struggling with trade 
policy in Ways and Means, something unimportant compared to 
this, but thank you for being here.
    And I think this is such an incredibly important hearing. 
Thank you for doing this.
    I represent Virginia, northern Virginia, but we have 
Norfolk, Portsmouth, and Virginia Beach, which is not only 
sinking slowly but the water's rising most rapidly there I 
guess than anywhere along the East Coast. It seems like 14 
inches in the last 20 years. And I think Northrop Grumman that 
did the charts suggested that Norfolk and Portsmouth will be 
underwater something like 60 percent of the year, their 
downtowns by 2040.
    And then we have a little Sears home in Oxford, Maryland, 
and it's always encouraging to look at the LIDAR numbers and 
see if sea-level rise is just 1 foot in the Chesapeake Bay, how 
much of the village is underwater and how do you get there for 
the places that aren't?
    Ms. DesRoches, this may be best for you coming from New 
York City, which is--I mean, I'm sure you've seen the pictures 
of what's going to happen to Manhattan. I live in Alexandria 
across the river just south of the airport, and the last big 
storm we had, the storm surge came and flooded scores and 
scores of homes, and so one of the lingering infrastructure 
resilience problems is, do we build a wall around the 
neighborhood or do we build a berm in the middle of the G.W. 
Parkway or do we continue to expand the wetlands to provide 
resilience, or the most popular idea is, do we build a 
submersible surge wall in the Potomac River downstream about 5 
miles, and when the surge comes, the wall comes up and holds 
the surge back. This is the $5 billion option.
    Where is your engineering New York City background taking 
you on trying to protect all these low-lying cities?
    Ms. DesRoches. So great question, very complicated. So we 
are looking at all options. We are looking at new planning 
tools first and foremost. FEMA--we are collaborating with FEMA 
on a forward-looking flood map, which will incorporate climate 
change data, which will help inform residents, businesses, and 
the city as to what the future floodplain looks like. We are 
building coastal protection in some of our neighborhoods. We 
are cooperating with the Corps on a storm surge barrier study. 
We're supporting that study.
    So my main answer is there isn't one silver bullet. We have 
to look at this across all of the tools we have, also including 
building codes, which we've talked some about today. How can we 
enhance that so that we are looking systematically about 
protection but also how do we enhance the resiliency of the 
assets that we have today?
    Mr. Beyer. Great. Thank you very much. I know it's 
incredibly complicated, sort of living it with the constituents 
every day.
    Mr. Reeve, you talked about the ability of composite 
materials to withstand saltwater. Is there a different 
scientific or engineering approach depending on the salinity of 
the water?
    Mr. Reeve. No, it--the materials that we use in there, you 
know, work with any of the different types of salinities, 
again, even up to the acidic side so whether it's brackish or 
anything. You know, those materials will do fine.
    I will say we supply a Navy berthing--we supply berthing 
structures for the Navy submarines and the aircraft carriers 
and do that at--for a lot of bases across the United States. I 
will say the ones--the equipment in Norfolk station gets beat 
up the most.
    Mr. Beyer. Yes.
    Mr. Reeve. It has the roughest time with where you're 
located so----
    Mr. Beyer. Yes. Thank you very much. Mr. Averill. On the 
materials requirements for resilient roads, bridges, 
transportation assets, are they different in coastal 
communities versus inland communities or are the materials 
requirements basically the same?
    Mr. Averill. Certainly to the extent that we would see 
saltwater exposure, that would increase the chlorides, if 
you're in a northern climate, for example, and you look at the 
de-icing compounds that would be used up there versus maybe a 
more southern climate where we don't need to treat for that. So 
our research tries to work with the standards community to come 
up with performance requirements for materials for a variety of 
different hazards that might represent what materials across 
the United States would be exposed to.
    Mr. Beyer. All right. Great. Thank you all very much.
    Madam Chair, I yield back.
    Chairwoman Sherrill. Thank you. Mr. Norman, do you have 
anything further?
    Mr. Norman. No.
    Chairwoman Sherrill. Before we bring the hearing to a 
close, I want to thank our witnesses for testifying before the 
Committee today. The record will remain open for 2 weeks for 
additional statements from the Members and for any additional 
questions the Committee may ask of the witnesses.
    The witnesses are excused, and the hearing is now 
adjourned. Thank you.
    [Whereupon, at 11:28 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
